<html>
<title> - IRAN REFINED PETROLEUM SANCTIONS ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                  IRAN REFINED PETROLEUM SANCTIONS ACT
                                OF 2009

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2194

                               __________

                            OCTOBER 28, 2009

                               __________

                           Serial No. 111-66

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
53-137                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f493849bb4978187809c919884da979b99da">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
              David S. Abramowitz, Chief Counsel<greek-l>
           Kristin Wells, Deputy Chief Counsel deg.<greek-l>
     Alan Makovsky, Senior Professional Staff Member deg.<greek-l>
       David Fite, Senior Professional Staff Member deg.<greek-l>
   Pearl Alice Marsh, Senior Professional Staff Member deg.<greek-l>
     David Killion, Senior Professional Staff Member deg.<greek-l>
        James Ritchotte, Professional Staff Member deg.<greek-l>
         Michael Beard, Professional Staff Member deg.<greek-l>
         Amanda Sloat, Professional Staff Member deg.<greek-l>
         Peter Quilter, Professional Staff Member deg.<greek-l>
                Daniel Silverberg, Counsel deg.<greek-l>
     Brent Woolfork, Junior Professional Staff Member deg.<greek-l>
    Shanna Winters, Senior Policy Advisor and Counsel deg.<greek-l>
             Jasmeet Ahuja, Professional Staff Member deg.
         Laura Rush, Professional Staff Member/Security Officer
        Genell Brown, Senior Staff Associate/Hearing Coordinator


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 2194, To amend the Iran Sanctions Act of 1996 to enhance 
  United States diplomatic efforts with respect to Iran by 
  expanding economic sanctions against Iran......................     3
  Amendment in the Nature of a Substitute to H.R. 2194 offered by 
    the Honorable Howard L. Berman, a Representative in Congress 
    from the State of California, and Chairman, Committee on 
    Foreign Affairs..............................................    18

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD

The Honorable Keith Ellison, a Representative in Congress from 
  the State of Minnesota: Letter.................................    66
The Honorable Howard L. Berman: Evidence of Iran's Military 
  Nuclear Intentions and Iran's Safeguard Violations.............    75

                                APPENDIX

Markup notice....................................................    82
Markup minutes...................................................    83
The Honorable Howard L. Berman: Prepared statement...............    85
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Prepared statement....................    87
The Honorable Keith Ellison, a Representative in Congress from 
  the State of Minnesota: Prepared statement.....................    90


              IRAN REFINED PETROLEUM SANCTIONS ACT OF 2009

                              ----------                              


                      WEDNESDAY, OCTOBER 28, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The <greek-l>hearing, the  deg.committee 
will come to order.
    Before we begin, I wanted to take a couple of moments to 
acknowledge the departure of two very key staffers for the 
committee, David Abramowitz, our chief counsel, and Kristin 
Wells, our deputy chief counsel.
    David has been on the committee since 1999, and prior to 
that, he served for a decade in the State Department's Office 
of the Legal Advisor.
    Kristin has been with the committee since 2007, and 
previously served with the Committee on the Judiciary beginning 
in 2001.
    David and Kristin have made major contributions to the 
committee's legislative agenda and to our Nation's foreign 
policy. Both played key roles in the committee's recent passage 
of the State Department authorization bill.
    David's role while in the minority, as well as in the 
majority, working on such issues as the Trafficking Victims 
Protection Act, the Millennium Challenge Assistance Program and 
PEPFAR are well-known to many of us. I think it is fair to say 
that David has been instrumental in everything this committee 
has done. His work has resulted in improving the lives of 
millions of recipients of U.S. assistance programs, including 
trafficking victims. We will miss him greatly, but not for 
long, because he will likely be back in his new capacity 
working for Humanity United, an antitrafficking organization.
    Kristin, too, has been a major force in the committee, 
working on behalf of the innocent and disadvantaged. She too 
was instrumental in the Wilberforce Trafficking Reauthorization 
Act of 2007, the United States Caribbean Educational Exchange 
Act, legislation pertaining to Iraqi refugees, the 
International Violence Against Women Act, and she has played a 
key role up to today, up until late last night--<greek-l>which 
deg.today is her last day--in working with Mr. Smith's staff on 
a bipartisan basis to further protections of the innocent. She 
put global women's issues front and center for this 
committee<greek-l>, deg. and her contributions will be long 
remembered.
    So I thank you, both of you, for your service and say, 
``Good luck.'' As I mentioned, they are going on to new 
professional challenges, David to Humanity United, a foundation 
which is dedicated to ending modern-day slavery and mass 
atrocities. Kristin will be a partner in Patton Boggs, where 
she will be a key figure in their widening practice.
    <greek-l>The way you sort of can tell the value--w deg.When 
you really realize the value of the incredible staff that we 
all have working for us is when they come in to tell you they 
are leaving and you can gauge how depressed you get when you 
hear that news. And in this case, the indicator definitely went 
up on that issue.
    We thank both of them, and we will miss you.
    And now, pursuant to notice, I will call up H.R. 2194, the 
<greek-l>Iran Petroleum Refined--the  deg.Iran Refined 
Petroleum Sanctions Act.
    Without objection, the amendment in the nature of a 
substitute before the members will be considered as base text 
for purposes of amendment, will be considered as read, and will 
be open for amendment at any time. A summary of the amendment 
in the nature of a substitute is on each member's desk.
    [The information referred to follows:]<greek-l>H.R. 
2194 deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Amendment to H.R. 2194 in NOS deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. In a moment, I will yield myself 5 minutes 
to explain the bill and then 5 minutes to the ranking member to 
allow her to provide her views on the legislation.
    If a member wishes to make a general statement on the bill, 
they may do so by asking to strike the last word once the bill 
is being considered for amendment.
    Without objection, I may recess the committee from time to 
time.
    In addition, I may exercise the chair's prerogative under 
rule IV of the committee rules to postpone votes for the 
convenience of the members. I will give members as much notice 
as I can on when such postponed votes will occur.
    And without objection, I recognize myself for 5 minutes.
    In marking up H.R. 2194, I have one transcendent goal in 
mind: To maximize the chances that Iran, the leading state 
sponsor of terrorism, will be prevented from acquiring the 
capacity to produce nuclear arms. That capacity would pose 
perhaps the most serious strategic threat to our Nation.
    Why? Four reasons: First, a nuclear-armed Iran would be 
able to bully its neighbors and dominate its region and would 
be much less susceptible to pressure from the international 
community. Second, its terrorist proteges, like Hezbollah and 
Hamas, would be emboldened. Third, it would likely spark a 
nuclear arms race in the Middle East and the Persian Gulf that 
would lead to the collapse of the global nuclear 
nonproliferation regime. And finally, and very importantly, we 
could never be sure that it wouldn't share its nuclear know-how 
with others, including terrorists, or possibly even use nuclear 
weapons against Israel or other United States allies in the 
region.
    This legislation seeks to target Iran's ongoing dependence 
on refined petroleum imports. It is not a magic bullet, but it 
will--at least--force the Iranians to think twice about 
continuing to flout the will of the international community.
    Unlike previous Iran sanctions legislation, which has been 
ignored by every administration, this bill requires the 
administration to report to Congress all activities that would 
trigger sanctions. Three hundred and thirty members of the 
House, including the overwhelming majority of this committee, 
are cosponsors of this bill.
    When I introduced H.R. 2194<greek-l>, deg. 6 months ago, I 
said that I did not want to mark it up right away because I 
wanted to give diplomacy a chance to succeed. And I still do.
    In recent weeks, there has been a potential development on 
the diplomatic front as the United States, its 
partners<greek-l>, deg. and Iran have discussed the prospect 
that Iran would ship 75 percent of its existing stockpile of 
low-enriched uranium outside the country to be further enriched 
for use<greek-l>d deg. in making medical isotopes. If this deal 
is realized, as agreed to in principle, and not with 
significant modifications--and assuming that Iran has no covert 
stockpile of low-enriched uranium--we will have pushed back 
Iran's nuclear clock perhaps 9 months to 1 year.
    In marking up this bill today, we must recognize that 
whatever the progress on that recent arrangement, it does not 
address the international community's central concern: 
Suspension of Iran's uranium enrichment program.
    Iran is still refusing to suspend enrichment, as demanded 
in four separate United Nations Security Council resolutions, 
and has thus far not even committed to engage on that core 
issue in the recent round of talks. In fact, as we now know, 
Iran has been seeking to covertly expand its uranium enrichment 
program.
    The Iranian Government should know that the U.S. Congress 
remains intently focused on this issue, and that there will be 
consequences if it continues to stonewall. That is why, after 6 
months of waiting, it is time to begin moving this bill through 
the legislative process.
    I am not giving up on the possibility that diplomacy will 
succeed in bringing about a suspension of 
Iran<greek-l>ian deg.'s uranium enrichment program. But if 
diplomacy does not produce the desired results within a very 
short period of time, there should be a robust sanctions regime 
imposed by the U.N. Security Council--or, failing that, by a 
coalition of economically powerful, like-minded states that, 
one hopes, would include the United States, the EU nations, 
Japan, and several of the key oil-producing Arab states.
    Only when we judge that these other options will not 
succeed in a timely manner should we turn to additional 
unilateral and extraterritorial sanctions such as those 
included in H.R. 2194.
    As I said in my statement 2 weeks ago announcing this 
markup, by approving the Iran Refined Petroleum Sanctions Act, 
this committee will take the first key step<greek-l>s deg. to 
ensure that President Obama is empowered with the full range of 
tools he needs to address the looming nuclear threat from Iran, 
even as he pursues diplomacy and, if necessary, the 
multilateral sanctions track. Given the length of time it 
ordinarily takes the House and Senate to move a significant 
piece of legislation to the President's desk, it is important 
that we initiate this process today.
    All of us are aware that<greek-l>, deg. if the provisions 
of this bill are ever implemented, they would likely have a 
significant impact on the Iranian economy, including quite 
possibly on average Iranians. While that is a 
distasteful<greek-l>, I give myself deg.--I ask for unanimous 
consent to have 2 additional minutes.
    Mr. Burton. Of course.
    Chairman Berman. And I will give myself that.
    While that is a distasteful prospect--that is the 
significant impact on average Iranians--the urgency of dealing 
with the Iranian nuclear project--and the immense danger that a 
nuclear-armed Iran would pose to tens, if not hundreds, of 
millions of people who will fall within the range of its 
missiles--compels us to go forward with this legislation. 
Should its implementation prove necessary, it would be our hope 
that the Iranian regime would come to its senses and suspend 
its enrichment program at the earliest possible time.
    Iranians should understand that Americans, while distressed 
by the actions of the Iranian regime, have feelings of real 
friendship for the Iranian people themselves, and we believe 
most Iranians reciprocate those feelings. Many of us regret 
that developments in recent decades have created impediments to 
our mutual friendship.
    We look forward to a day when the United States-Iranian 
friendship can blossom anew, when a government in Tehran is 
willing to restore Iran to membership in good standing among 
the community of nations. For Iran, the first step down that 
path is the complete abandonment of its nuclear weapons 
program.
    We know that sanctions can work. We have seen them succeed, 
for example, in the cases of South Africa and Zimbabwe, when it 
was known as Rhodesia. But sanctions usually take time. Given 
the advanced state<greek-l>, deg. even of the overt Iranian 
nuclear program; given Iran's achievements in missile 
development; and given persistent reports that Iran has made 
considerable progress on nuclear-weapon design, we have very 
little time to lose. Should diplomacy fail, we must be 
prepared.
    I urge all members of the committee to support this bill, 
and I turn to the ranking member to express her views on the 
legislation.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    I am extremely pleased that this urgently needed sanctions 
legislation is being marked up today. The extent of the Iranian 
threat is far greater today than when the Iran-Libya Sanctions 
Act, also known as ILSA, was passed in 1996 or even when the 
Iran Freedom Support Act, which I authored to strengthen Iran 
sanctions, was enacted into law in 2006.
    Throughout, Iran has poured massive resources into its 
nuclear weapons program and has made great strides in its 
development of ballistic missiles and other advanced 
conventional weapons. Its support for militant, Islamic 
extremists has greatly expanded as well. And it has adopted 
increasingly aggressive policies toward other countries in the 
region.
    By sanctioning foreign companies that invested in Iran's 
energy infrastructure, ILSA sought to cut off investment in 
Iran's struggling petroleum sector, the regime's economic life 
line. As a result, Iran's petroleum sector has been denied 
critical foreign investment. Today's legislation, the Iran 
Refined Petroleum Sanctions Act, seeks to ratchet up the 
pressure on the regime by targeting a new vulnerability, namely 
Iran's inability to produce sufficient gasoline and other 
refined-petroleum products.
    The bipartisan bill, as you have stated, Mr. Chairman, also 
has 330 cosponsors. There is no question that it will be 
adopted overwhelmingly when it is sent to the floor, which I 
hope will be soon.
    The amendment in the nature of a substitute which we are 
considering today contains a number of important changes to the 
introduced bill. I will highlight just a few: A requirement 
that investigations into possible violations of the Iran's 
Sanctions Act be concluded within 180 days; an expansion of 
sanctions beyond the maritime shipment of refined-petroleum 
products to Iran to also include truck and rail shipping; a 
prohibition on new nuclear cooperation agreements with 
governments that do not take effective action against those 
under its jurisdiction who provide Iran with materials and 
technology used in its nuclear weapons program; additional 
reporting requirements regarding the Iranian Revolutionary 
Guard Corps, activity by Iranian diplomats, quasi-official 
entities and proxies, such as Hezbollah in the Middle East, 
Western Hemisphere, Africa and beyond, and trade between Iran 
and the G-20 nations; and an additional sense of Congress 
regarding newly discovered nuclear facilities, as well as 
additional statements of policy, such as calling on the 
Secretary of State to make every effort to assist the American 
hostages taken when Iranian militants seized our embassy in 
1979 and their survivors in achieving full compensation for 
their injuries.
    These and other additions greatly strengthen the bill's 
effectiveness. Major opportunities have been thrown away 
because successive administrations refused to use the many 
powerful tools that Congress has given to them or did so only 
halfheartedly.
    It is my expectation that we will work in a bipartisan 
manner to ensure that congressional mandates and intents are no 
longer ignored by the executive. I further hope that the 
current administration, as with its predecessor in the second 
term, does not allow itself to be manipulated by Iran into an 
indefinite holding pattern to delay and extract greater 
concessions while the clock on their break-out capacity 
continues to tick.
    I used a reference at last week's Burma hearing with 
respect to the proposed new approach to that regime that, 
unfortunately, also fits perfectly when discussing dealings 
with the Iranian regime. And that is a Winston Churchill quote, 
when he warned, ``There is no greater mistake than to suppose 
that platitudes, smooth words, and timid policies offer a path 
to safety.'' I fear that I will have many opportunities to use 
that Churchill quote in the future.
    After years of failed efforts at engagement and offers of 
inducement, it should be clear that unless we impose the 
maximum pressure on Iran, and this bill is a major step forward 
in that direction, the regime will continue its march toward 
acquiring nuclear weapons, dominating the Persian Gulf, and 
expanding its network of radical militants around the world. We 
still have time to act but we must do so quickly.
    And Mr. Chairman, one last note, I join you in wishing much 
success to David and Kristin in their new endeavors. And 
indeed, it is delight to work with all of your staff members on 
your side. I know that that is the feeling on our side of the 
aisle.
    I enjoy working with you as well, Mr. Chairman, in a 
bipartisan manner and will continue to do so as we move this 
bill along in other committees and on to the floor action.
    Thank you so very much, Mr. Chairman.
    Chairman Berman. Thank you very much, and I share that 
enjoyment of course. Sometimes at 11 o'clock at night, it is--
for what purpose?
    Mr. Ackerman. Move to strike next to the last word.
    Chairman Berman. The gentleman is recognized to next of 5 
minutes.
    Mr. Ackerman. Mr. Chairman, I have been and remain a strong 
advocate for sanctions on Iran. For many years, through 
Democratic and Republican administrations, I have felt it to be 
vital to force Iran to pay a price, some price, any price, for 
its general subversion and state sponsorship of terrorism and, 
most of all, its nuclear proliferation.
    Today we are going to move forward a sanctions bill that I 
believe will strengthen the Obama administration's ability to 
conduct effective diplomacy. The world, and I mean both our 
allies and others, needs to know that the U.S. Congress is dead 
serious about sanctions should diplomacy fail to resolve the 
real concerns about Iran's nuclear program.
    For those who worry that sanctions may lead to conflict, I 
would suggest that the opposite is true. With Iranian 
proliferation on the horizon, what is feckless is reckless. If 
you don't want war, it seems to me that you must back the 
toughest possible sanctions.
    But sanctions alone almost certainly are not going to be 
sufficient to force the Iran regime to change course. The 
violence throughout Iran in June following the rigged 
Presidential election as well as the subsequent escalation of 
political repression have both demonstrated Iran's rulers are 
ready to do whatever is takes to preserve their grip on power. 
And given the 10 years of sanctions followed by the war against 
Saddam's Iraq and what hasn't happened to nuclear North Korea, 
I suspect Iranian's thugocracy sees nuclear arms as their 
ultimate insurance policy.
    So even as we proceed, as we must, on enhancing our 
capacity for unilateral sanctions and even as we continue, as 
we must, on developing crippling multilateral sanctions that 
can be applied if diplomacy proves to be ineffectual, we should 
bear in mind that there may not be any level of sanctions 
sufficient enough to compel a change in Iran's nuclear program. 
I would suggest we need a strategy more comprehensive than just 
diplomatic engagement followed by sanctions.
    President Obama's support for direct engagement with Iran 
has already helped to heal a variety of political woes. But by 
itself, diplomatic engagement still leaves too much initiative 
in Iranian hands. Likewise with political and economic 
sanctions if the Iranians remain recalcitrant and sanctions are 
applied, no matter how crippling, and I would want them to be 
absolutely suffocating of the regime, the initiative is still 
left to the Ayatollahs to decide when they have had enough.
    After bemoaning for years the insufficiency of our leverage 
over Iran, why have we chosen to ignore Iran's green movement, 
which so clearly has the Ayatollahs absolutely terrified. Iran 
is sowing chaos and terror throughout the Middle East. Where is 
the Truman-like policy of declaring our support for any nation 
trying to remain free from Iranian threats?
    We do need to pursue engagement, and we do need to have 
sanctions ready in case it fails. But we also need a policy 
that supports the democratic movement within Iran, that 
strengthens our abilities to resist Iranian subversion, that 
enhances our political and military coordination within the 
Persian Gulf, that makes clear to all nations that political 
support for Iran will come at a price in their relations to the 
United States.
    If we don't come up with a comprehensive policy, one that 
applies pressure to Iran across the board, I suspect President 
Obama is soon going to have to decide whether an Iranian 
nuclear weapons is truly unacceptable in the full meaning of 
the word and with full knowledge of what that really means.
    Mr. Chairman, I withdraw my motion.
    Chairman Berman. The time of the gentleman has expired.
    And the gentleman from Indiana<greek-l> that deg., Mr. 
Burton, for what purpose do you seek recognition?
    Mr. Burton. Strike the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Burton. First of all, Mr. Chairman, I am very happy we 
are finally getting to this legislation. You introduced it 6 
months ago, and you and I have discussed this many times about 
how quickly we should bring it to the full committee.
    I would just like to ask you, Mr. Chairman, if you would 
yield to me.
    Chairman Berman. You have the time.
    Mr. Burton. Well, I will yield to you for an answer, then. 
Do we have any assurance that the other committees of 
jurisdiction are going to work with us to bring this bill to 
the floor expeditiously?
    Chairman Berman. If the gentleman will yield.
    Mr. Burton. I am yielding.
    Chairman Berman. What I--I am not going to let--I will do--
put it this way, I will do everything in my power to make sure 
that the timing of this bill is not negatively affected by the 
sequential referrals to the three committees that come from 
this legislation. And I am not--I am not going to use the 
sequential referral process as an excuse to keep from bringing 
this bill up at the time I think it achieves its purpose.
    Mr. Burton. Mr. Chairman, I do appreciate that, but we have 
waited 6 months for this one.
    And if the other committees of jurisdiction drag their 
heels, we could be messing around with this for another 6 
months or longer.
    I don't trust Iran. You know, in I think 1939, Lord 
Chamberlain went to Munich to talk to Hitler, and he got 
assurances that Hitler wasn't going to do anything to expand 
his aggressive moves. And yet a short time after that, we were 
in the middle of World War II that killed 50 million or 60 
million people.
    We are in the nuclear age right now. We can't drag our 
feet. More currently, the Clinton administration trusted and 
worked with and got some concessions out of North Korea which 
were thrown right down the receptacle we find in our bathrooms, 
and they went right ahead with their nuclear program.
    And so let me just say, Mr. Chairman, I think it is 
essential that this Congress move and move as rapidly as 
possible and try to get our allies to move as rapidly as 
possible to put these sanctions on them. I don't believe that 
they are going to stop their nuclear program.
    We have heard time and again that one of their major goals 
is to destroy Israel, to wipe it off the face of the earth. 
They likewise call us the Great Satan. I haven't heard anything 
in their rhetoric that would change that. And now they are 
saying, well, that they are thinking about it. At Geneva, they 
said that they would start trying to work out something so they 
could send part of their nuclear material back to Russia, 75 
percent or whatever it is. They shouldn't have any of that 
nuclear material.
    And right now, as we speak today, the centrifuges are still 
spinning. They are working today to develop a nuclear weapons 
capability and their missile capability as well. And the longer 
we wait, the more we risk a major conflagration other there.
    I know some of the leaders in Israel, and I know that their 
number one concern is protecting their country. It is a very 
small country and could be almost annihilated with a couple of 
nuclear weapons. And I truly believe, the longer we drag our 
feet, the more we risk a conflict over there that could kill an 
awful lot of innocent people both in Iran and in Israel.
    And so I think we need to move as quickly as possible, and 
I hope you will use all the power you have, as you just stated, 
Mr. Chairman, to get this legislation through the other 
committees and get it to the floor so we can vote on it. We get 
this thing passed and then start talking to our allies about 
working with us and the United Nations. Then, I think, we can 
start putting some real pressure on Iran. But right now, 
solving this problem with just words is not going to get the 
job done.
    With that, I yield back the balance of my time.
    Chairman Berman. Time of the gentleman has expired.
    The gentleman from California, Mr. Sherman. For what 
purpose do you seek recognition?
    Mr. Sherman. To strike one of the words. You can decide 
which one.
    Chairman Berman. Okay, the gentleman is recognized for 5 
minutes.
    Mr. Sherman. Our policy of engagement needs to be 
complimented by immediate, harsh and extraterritorial 
sanctions. And we need to get the administration to enforce the 
bills that have already become law, especially the Iran 
Sanctions Act. We need to pass several additional sanctions 
through this Congress; then the sanctions can be frozen or 
waived when the centrifuges are frozen, and then talks can 
continue in a more relaxed atmosphere.
    With that being said, this is a good bill. I am proud to 
cosponsor it. It is not comprehensive; it is not intended to be 
comprehensive. And I am not going to offer amendments that are 
outside the objectives of the author. Rather, I hope that those 
other objectives already embodied in bills that I have authored 
or cosponsored, or that others have put forward, will be taken 
up expeditiously so that we will pass every possible useful 
sanction through this Congress. That would include making sure 
that U.S. subsidiaries don't do business with Iran, that is to 
say foreign incorporated subsidiaries of U.S. firms. Also, a 
ban on Iranian exports to the United States. It wouldn't even 
be exterritorial to say that we are going to stop imports from 
Iran. We don't import oil from Iran. We only import the stuff 
that we don't need and they couldn't sell anywhere else.
    There are a number of other sanctions, including those 
designed to prevent Iran from getting mining and milling 
equipment. I believe the ranking member and I are working on 
that. I look forward to working on these other pieces of 
legislation.
    Finally, I want to thank the chairman for including in this 
bill language that would target the Iran Revolutionary Guard 
Corps. That Corps has operated through hundreds of fronts and 
affiliates. It is time that we designate these entities under 
appropriate statutes and executive orders. The amendment put 
forward by the chairman would require that the administration 
identify these fronts and affiliates in reports required by the 
bill, and calls on the President to sanction these entities as 
well as those who do business with them. If you sell to the 
IRGC or any of its fronts or affiliates, you should not be 
selling to us.
    I look forward to the passage of this important 
legislation, commend the chairman for drafting it and yield 
back.
    Chairman Berman. The time of the gentleman has expired.
    And the gentleman from Indiana, for what purpose----
    Mr. Burton. I will speak again.
    Chairman Berman. The other gentleman from Indiana. There 
are more than one.
    Mr. Pence. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Pence. I am glad to be here today, and I appreciate the 
chairman and the ranking member's leadership in bringing H.R. 
2194 before this committee, which has extraordinary bipartisan 
support in this committee and before the Congress. The bill 
before us today, if enacted, would amend the Iran Sanctions Act 
of 1996 to provide additional tools the administration should 
use to pressure Iran where words have failed.
    Despite the fact that the prevailing diplomatic wins these 
days blow in the direction of diplomacy alone, I believe with 
all my heart that diplomacy and sanctions are not mutually 
exclusive. And the action that this committee will take today. 
And I hope that this Congress will take in the very near future 
in moving and enacting the Iran Refined Petroleum Sanctions Act 
will greatly strengthen the position of the United States at 
the negotiation table with our allies relative to Iran.
    This past summer, we saw vivid images of violent acts the 
Iranian regime was willing to commit against its own citizens 
to maintain its illegitimate grip on power. Dissidents took to 
the streets, by the millions to express their opposition to the 
fraudulent elections. The crackdown began with tragic results.
    Mr. Chairman, it was a great privilege for me to partner 
with you in bringing a bipartisan resolution to the floor of 
the Congress that gave the American people an opportunity to 
speak in solidarity with the dissidents in Iran and also to 
condemn the violence that took place there.
    The reality was at that time Iran effective declared war on 
its own people. We ought to ponder that as we think about the 
strength of this legislation and U.S. resolve. If this is the 
level of violence that a regime in Tehran is willing to use 
against its own citizens, what does that tell us about the 
level of violence they would be willing to use against other 
nations?
    Iran's support for terrorism and pursuit of weapons of mass 
destruction have long threatened global peace and security. To 
the Iranian regime, the United States is the Great Satan and 
our cherished ally Israel has no right to exist.
    Last week Iran missed the deadline to respond to a proposed 
agreement between Iran and six world powers, including the 
United States. Under the deal, Russia and France would accept 
80 percent of Iran's known low-enriched uranium, process it for 
civilian purposes, and then give it back to Iran. Yesterday, 
Iran agreed to this general framework we are told, but they 
said they would seek important changes. This announcement 
should be seen for what it is, little more than a two-step to 
keep the negotiation process going while Iran continues in its 
headlong rush to obtain usable nuclear weapons.
    Iran's failure to meet deadlines in this current ploy to 
drag out negotiations further should come as no surprise. Iran 
deceived the world community time and time again, and any 
assurance that their nuclear program is peaceful should be seen 
for what it is.
    The revelation last month of Iranian's secret uranium 
enrichment facility near Qom has already shown Iran's 
propensity--Tehran's propensity for double dealing. The world 
is left to wonder what other sites might be hiding thousands 
more centrifuges busily churning out highly-enriched uranium 
and how long it will be before they have enough for a bomb. 
Already the leading state sponsor of terror, it would only be a 
matter of time before a nuclear-armed Iran made good on its 
threat.
    The international community and I would argue this country 
has talked long enough about Iran's nuclear ambitions. It is 
time for deeds. It is time to take real concrete steps to begin 
to economically isolate this discredited regime in Tehran. And 
I urge support for the strongest possible measures to be 
included in the Iran Refined Petroleum Sanctions Act and, 
again, commend the chairman of this committee and the ranking 
member of this committee for their strong leadership in 
bringing this legislation before the Congress.
    I yield back.
    Chairman Berman. Thank you.
    And the gentleman from New York seeks recognition.
    Mr. Engel. Yes, Mr. Chairman, I move to strike the last 
word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Engel. Thank you. I want to associate myself with Mr. 
Pence's remarks, which I think are quite right and on the 
money.
    So I thank you for making those remarks, Mr. Pence, and I 
certainly agree with everything you have said.
    And Mr. Chairman, I strongly support H.R. 2194, the Iran 
Refined Petroleum Sanctions Act of 2009. I am a proud cosponsor 
of this excellent piece of legislation which seeks to increase 
the pressure on Iran for its pursuit of nuclear weapons. And I 
would especially <greek-l>would  deg.like to commend you, Mr. 
Chairman, for sponsoring this thoughtful initiative.
    As you know, I was the author of a Syria Accountability Act 
some years ago. Ms. Ros-Lehtinen and I introduced that bill. It 
slapped sanctions on Syria for the first time ever. We pursued 
diplomacy while we pursued sanctions, and I think that is an 
important thing to remember.
    Only a few short weeks ago, the world learned of a secret 
uranium-enrichment facility near the city of Qom. If there was 
ever any doubt Iran was trying to build nuclear weapons, I 
believe that this revelation dispels any shred of that doubt. 
The facility, kept secret from the IAEA, was built deep on a 
mountain, on a protected military base. This is how a country 
conceals a nuclear weapons program, not how it develops 
peaceful energy technologies.
    As Iran continues to disregard its legal obligations and 
flouts U.N. Security Council resolutions demanding that it halt 
its nuclear enrichment program, this committee can play a 
critical role in impeding Iran from acquiring a nuclear weapons 
capability. By passing this Iran Refined Petroleum Sanctions 
Act, Congress will create critical tools to increase the 
pressure on Iran. Although Iran is a leading producer of crude 
oil, it has limited refining capability. This bill seeks to 
increase leverage against Iran by sanctioning entities that 
export refined-petroleum products to Iran or support the 
development of Iran's domestic refining capabilities.
    It is my hope that the administration will apply these 
additional sanctions to make absolutely clear to the 
Ahmadinejad regime that the world will not accept his nuclear 
ambitions.
    Mr. Chairman, as chairman of the Subcommittee on the 
Western Hemisphere, I would like to raise one additional 
concern which arose at my hearing yesterday on Iran's role in 
the Western Hemisphere. Last month, Venezuelan leader Hugo 
Chavez agreed to provide 20,000 barrels per day of refined 
gasoline to Iran. It is anyone's guess as to whether this will 
ever be implemented, but the deal may be covered by the bill we 
are considering today. While some question whether Venezuela 
has the ability to provide gasoline to Iran since it imports 
some gasoline to meet its own domestic demand, President Chavez 
is clearly approaching a perilous area. I hope he reconsiders 
this unwise step. And if he doesn't, I hope these sanctions 
will apply in that regard.
    The United States, our allies and the United Nations 
Security Council have recognized that a nuclear-armed Iran 
would be a danger to the Middle East and to the nuclear 
nonproliferation regime. A nuclear-armed Iran is simply 
unacceptable, and we must not stand for it. And while the rest 
of the world twiddles its thumbs, this is obviously a very, 
very important issue, not only for us in the United States, but 
for the people of Israel. I think the people of Israel will 
make decisions on how they act, but I believe that we in the 
United States can make decisions to try to block Iran. So I 
therefore strongly support the Iran Refined Petroleum Sanction 
Act, and I urge the committee to report this bill favorably, 
and I yield back the balance of my time.
    Chairman Berman. The time of the gentleman has expired.
    And the gentleman from New Jersey, Mr. Smith.
    Mr. Smith. Mr. Chairman, I move to strike the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Smith. Thank you very much.
    Mr. Chairman, first of all I, want to congratulate you and 
the ranking member in pushing this necessary tightening and 
enhancement of sanctions against Iran. It is important that 
sanctions against the Government of Iran be considered in the 
context not only of United States security interests and those 
of our allies and friends directly threatened, which includes 
especially Israel, but also in pursuit of respect for human 
rights and democratic freedom to which the people of Iran are 
entitled.
    In fact, the two goals cannot be separated, regional and 
global security depend on Iran having a stable government and a 
society where human rights and the will of the Iranian people 
are respected. This bill underscores that point. The bill makes 
clear within the department, within the statement of policy 
that the United States supports ``all Iranian citizens who 
embrace the values of freedom, human rights, civil liberties 
and the rule of law.''
    Mr. Chairman, I recently joined my friend and colleague Bob 
Inglis and other House members in sending a letter to Secretary 
of State Hillary Clinton expressing concerns about reports that 
the State Department and USAID are being ``extremely cautious 
as to whether and how they provide funding to promote 
democracy, human rights and the will of law in Iran.''
    The how of it is an important issue for deliberation, but 
there should be no question whatsoever as to whether United 
States actively supports these essential goals of the Iranian 
people. There are reports that important initiatives are being 
undertaken by highly reputable groups such as Freedom House and 
the International Republican Institute, both here in the United 
States, in furtherance of these goals have had their U.S. 
funding renewal requests denied. And as a result, those 
initiatives may be discontinued. This would <greek-l>be 
deg.seem to be contrary to the best interest of the Iranian 
people and the United States.
    The letter to Secretary Clinton asked for information as to 
what strategy the U.S. Government is pursuing in support of the 
green revolution.
    In the meantime, this bill does provide the committee the 
opportunity to send the clear, unmistakable message to the 
Iranian Government that there are consequences to attempting to 
develop nuclear weapons, unconventional weapons and ballistic 
missiles and supporting international terrorism. I am very 
pleased to be one of the cosponsors of the bill.
    And finally, I just want to say, Mr. Chairman, that we will 
deeply miss David Abramowitz and Kristin Wells. David and I and 
the members of this committee for years worked on human rights 
legislation. As a matter of fact, the Trafficking Victims 
Protection Act would not have become law without the bipartisan 
cooperation and the insights and the wordsmithing that he 
provided, as well as members of our own committee and the 
members of our own staff. That kind of bipartisan cooperation 
is what it is all about. I think this bill is another example 
that that tradition continues to live on. I thank you and yield 
back.
    Chairman Berman. I thank the gentleman.
    And does the gentleman from Missouri seek recognition? No.
    The gentleman from New Jersey, Mr. Sires, for what purpose 
do you seek recognition?
    Mr. Sires. Thank you, Mr. Chairman, I move to strike the 
last word.
    I would like to thank the chairman and the ranking member 
for their continued efforts on the complicated issues 
surrounding Iran and their dedicated work on this bill. I am a 
proud sponsor of this bill and the broad bipartisan support 
behind this initiative is commendable.
    The Iran Refined Petroleum Sanctions Act will expand our 
options under the Iranian Sanctions Act by defining more 
sanctionable offenses and by expanding the available types of 
sanction. This bill allows sanction on firms that send refined 
gasoline to Iran or that send equipment to Iran that could 
support domestic oil refineries. These provisions are both 
appropriate and necessary as we confront Iran's nuclear threat.
    Talks are ongoing, and Iran has allowed U.N. officials to 
visit a previously unknown uranium enrichment site. But this 
type of engagement is buying Iran more time to stall. As we 
have seen before, these developers do not put me at ease about 
Iran's nuclear program, and I believe we must pursue tighter 
sanctions.
    The country's dependence on gasoline import is widely 
known, and this bill will weaken Iran by limiting the country's 
ability to access the energy it needs to continue its nuclear 
ambitions. Our Government has been extremely generous with the 
often infuriating Iranian regime. Now it is time to move 
forward with these sanctions.
    Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. I move to strike the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Rohrabacher. Mr. Chairman, first and foremost, I 
wholeheartedly support this resolution, and I identify myself 
with the remarks made by Mr. Pence earlier in this hearing.
    With that said, I would hope that this act does not have a 
loophole that will permit the administration to turn a blind 
eye to China's significant involvement in Iran's oil and gas 
industry. It has been reported that China has already surpassed 
Germany as Iran's number one trade partner.
    Sinopec, China's largest oil refiner, last year finalized a 
multibillion dollar deal to develop a giant oil field in Iran. 
And in addition to that, they made the deal of the century, a 
contract for natural gas from Iran's immense North Pars field.
    Chinese contractors are also busy constructing oil 
terminals for Iran in the Caspian Sea, and this while China's 
arms sales to Iran has included such items as ballistic missile 
technology, air defense radars, cruise missiles. I might add, 
one of those cruise missiles took out an Israeli warship a 
couple of years ago. I would also point out that the Jerusalem 
Post reported that many Chinese Grad rockets have been fired 
from Gaza into Israel. And one of those grad rockets, by the 
way, is a Katyusha rocket, which was fired just yesterday into 
the sea, in the area of Galilee.
    To conclude that--let me just note this, if we are serious 
about countering the threat that Iran poses to the United 
States and to its neighbors, we will do everything we can to 
stop the Chinese communist party from playing the spoiler role, 
not only with regard to oil and gas but also to military 
equipment with it provides Iran, which then ships it off to 
terrorist organizations.
    We have to do this, even if it means upsetting the 
communist party leadership in Beijing. And whether it also, 
perhaps, upsets the American corporate elite lapdogs that send 
off to China all of our jobs and technology.
    So while I support this legislation, let's hope that we 
don't lose focus on the role that China is playing and hold 
them accountable as pardon part of this legislation.
    Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Virginia, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and I want to thank 
you and----
    Chairman Berman. The gentleman moves to strike the last 
word?
    Mr. Connolly. I am sorry, Mr. Chairman, I move to strike 
the last and the penultimate word.
    Chairman Berman. The gentleman is not the penultimate 
speaker, though.
    The gentleman is recognized for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    And again, I want to thank you and the ranking member for 
moving forward with this legislation.
    The United States and its allies have made several 
diplomatic overtures to Iran with the goal of halting Iran's 
nuclear enrichment activity. Recent missile tests and the 
revelation of a secret enrichment facility in Qom add to the 
urgency of the situation.
    Now a new deal is on the table. Just last week, the White 
House announced its official support for an IAEA proposed 
arrangement that would send most of Iran's uranium outside of 
the country for enrichment. Time will tell whether Iran 
supports the proposal. The clock is ticking.
    While Iran may stall in accepting the deal, a common 
measure it has employed in the past, it is time to consider 
measures that will strengthen the United States and its allies' 
negotiating position or up the ante, so to speak.
    The real threat of additional sanctions can do just that. 
The Iranian Refined Petroleum Sanctions Act, H.R. 2194, will 
strengthen the President's authority to impose economic 
sanctions on Iran and give the President additional tools to 
use when considering the Iran situation.
    The message to Iran must be clear: Stop stalling and 
negotiate a deal, or there will be severe economic 
consequences.
    I yield back.
    Chairman Berman. For what purpose does the gentleman, Mr. 
Royce, seek recognition?
    Mr. Royce. Mr. Chairman, I move to strike the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Royce. Well, thank you, Mr. Chairman.
    Mr. Chairman, I think you noted that this issue has long 
been under consideration. And I think for those of us who have 
wrestled with this issue, as you have, one of the reasons it 
has been in abeyance for a while is because of that 2007 
National Intelligence Estimate, which concluded that in the 
fall, and to use the words of the estimate, in the fall of 
2003, Tehran halted its nuclear weapons program.
    Now several of us at the time saw this as a poorly produced 
document, a poorly presented document, and we were rather vocal 
in trying to point out the likelihood that that assessment was 
dead wrong. It surely damaged our international efforts to 
pressure Iran.
    And since that estimate, we have learned a lot about a 
North Korean built nuclear facility in Syria which we 
apparently were blind to at the time. I believe that that was 
likely linked to Iran. And one thing we do know is the Qom 
enrichment facility on an Iranian military bare, which has now 
come to our attention.
    Now the Washington Post on Saturday reported that the Qom 
site undermined one of the U.S. intelligence communities' key 
assessments of the Iranian's nuclear program. And that 
assessment was that Iran had abandoned its plans to enrich 
uranium in secret. We now know it is exactly the opposite of 
what be were told by the intelligence community. And there is 
no doubt, Mr. Chairman, that we have lost valuable time in 
responding to this very serious threat. And one of the reasons 
is because of that report, and I hope we learn something from 
it.
    I am also concerned by this administration's apparent 
walking away from the democratic movement in Iran. Other 
members have commented on this, but I wonder if members realize 
that the administration has now cut out grants to respected 
groups supporting democracy in Iran. We have had a bipartisan 
agreement for many years in this committee. And this is under 
our purview, our jurisdiction, for support for those doing work 
for human rights in Iran. And the idea that part of our 
outreach to the Iran regime should be undermining that support 
gives me concern.
    I would make the observation that Andre Sakharov many years 
ago told us something that we probably should have sensed, and 
that is how a regime treats its own people tells you a great 
deal about how it is likely to treat its neighbors. And for 
those of us in America who watched the results of the Basiji or 
the attacks by those armed militia for the regime on those who 
were protesting, trying to get an honest and fair outcome of an 
election that had been stolen; for those of us who learned 
about the bodies that disappeared and later turned up dead, the 
current protesters who have been given sentences of death for 
participating in protesting a stolen election; for those of us 
who know how Iranian families grieve for family members that 
are yet to be accounted for, they have no idea what is 
currently happening to those individuals; I think for us, there 
is a great deal of concern for the cuts to these efforts to 
support human rights.
    Now there is no guarantee that a democratic Iran would be 
nuclear weapons free, but they would be far more likely than in 
Iran in the grip of the Supreme Council, it be far more likely 
that we would have a regime that we could work with or at least 
we didn't have to fear; at least a regime that didn't tell us 
what the Soviets once told us. You know, the Soviet threat was 
that they were going to bury us. Well, we took action to 
contain that threat, and we listened to those dissidents in the 
Soviet Union who said, you know, supporting human rights over 
here is going to help change the system. And it is equally 
important here because smart diplomacy doesn't mean dropping 
any criticism of a regime's human rights abuse, and this it is 
a critical issue I hope this committee will look at, Mr. 
Chairman.
    Thank you.
    Chairman Berman. The time of the gentleman has expired.
    And the gentleman from New York, Mr. McMahon, is recognized 
on a motion to strike for 5 minutes.
    Mr. McMahon. Thank you, Mr. Chairman, I move to strike the 
last word.
    And I commend you for your leadership on advancing the Iran 
Refined Petroleum Sanctions Act of 2009, a historic bipartisan 
piece of legislation which limits investment in Iran's 
hydrocarbon sector. H.R. 2194 would sanction companies that 
help Iran import or produce refined petroleum, companies that 
ultimately endanger the security of the United States, Israel, 
and the world as a whole. Already due to the United States 
pressure, at least 40 banks, including Deutsche Bank and UBS, 
Credit Suisse, and Commerce Bank have all reduced business with 
Iran.
    Yet despite increased pressure, Iran refuses to suspend its 
uranium-enrichment program. In fact, as we have heard this 
morning, the revelation this past September that Iran failed to 
disclose yet another enrichment facility in Qom points to the 
reason why we are all here today. A nuclear-armed Iran is 
unacceptable and is not consistent with a secure and safe 
United States and Israel.
    Since Iran imports 40 percent of its refined petroleum this 
legislation will have a significant impact on Iran's economy 
and will send a clear message that Iran must stop its nuclear 
enrichment program. I am confident that this long-sought 
measure will undoubtedly give the administration the leverage 
that it needs to negotiate with the Ahmadinejad regime, but the 
United States will also need the full support of the 
international community to use limits on trade and the energy 
to help end Iran's nuclear ambitions.
    Mr. Chairman, I urge all members to vote for H.R. 2194, but 
I also urge all my colleagues to support the manager's 
amendment. Among many other positive changes, the manager's 
amendment includes a provision that will require the President 
to report to Congress on the dollar value amount of trade, 
including the energy sector, between Iran and each country 
maintaining membership in the Group of Twenty Finance Ministers 
and Central Bank Governors.
    I thank you, Chairman Berman, for working with me on this 
important provision, this amendment. I have devoted much of my 
efforts on the committee to promoting trans-Atlantic relations 
and nonproliferation efforts, and there is no better way to 
engage with allies and foes alike than to promote a nuclear 
nonproliferation regime.
    Major European allies, including the United Kingdom, 
France, and Germany, have advocated that sanctions be 
significantly toughened. This reporting requirement will allow 
the United States to compare the efforts taken by the G-20 
members in the fight against nuclear proliferation and will 
ultimately further secure the United States, Israel, and the 
global community. Through my provision, the manager's amendment 
will enhance an already comprehensive piece of legislation that 
I have proudly cosponsored.
    Again, thank you, Mr. Chairman; and I yield the remainder 
of my time.
    Chairman Berman. I thank the gentleman. The gentleman's 
time has expired.
    The gentleman from Texas, Mr. Paul, for what purpose do you 
seek recognition?
    Mr. Paul. I ask unanimous consent to address the committee 
for 5 minutes----
    Chairman Berman. Without objection.
    Mr. Paul [continuing]. And move to strike the last word.
    Mr. Chairman, thank you, and I oppose this legislation. I 
do not challenge the motivation of those who support this 
legislation, but I think it is deeply flawed, and I think it is 
going to do a lot more harm than good. It reminds me of all the 
talk that preceded us going into Iraq, all the wonderful things 
that could come by putting more pressure on a particular 
country starting first with sanctions.
    Sanctions are an act of war. It was suggested that 
Venezuela may be going to send oil over there. That means maybe 
intercepts on the high sea. But the best way for others to look 
at this to see my point is how would we react if somebody 
closed down our oil imports? I mean, we would be pretty unhappy 
about that. To think that this is not a serious matter I think 
is being rather naive.
    First off, the Iranians have a right to enrich for peaceful 
purposes. They have never been found in violation of the NPT 
treaty, not once. Our NIE report says they haven't been working 
on a weapon since 2003, and just because you disagree with it 
you can't just dismiss that report out of hand. So there is a 
lot of distortion on this information that we get.
    When we went into Iraq, there were unintended consequences. 
There is still no stability there, but one thing for certain is 
Iraq is a much closer ally of Iran right now. We drove the 
Iraqis into the hands of the Iranians.
    And there has been an expression here that this is a good 
bill, but we still should be concerned about China. Well, if 
you are concerned about China, this is the best thing in the 
world for China. They are motivated. They have already invested 
in Iran. The production of petroleum products has gone up 
significantly in Iran. So this is a big motivation for the 
Iranians to do exactly what you don't want them to do.
    Now the theory is that if we really punish the people, take 
their gasoline from them, and they are going to get angry. And 
they will. They are going to get angry at us. They are not 
going to get angry at the Ayatollah.
    What you are doing is you are deliberately undermining the 
dissidents there. They will lose all credibility. People, when 
attacked on the outside, as we were on 9/11, we come together. 
So all we do is keep pounding on people like this and we ruin 
the dissenting views that are operating in that country. So I 
just think this is all going to backfire.
    And we need to think in terms of the principle of free 
trade. You know, the more you put on sanctions, the more likely 
you will be to fight with them.
    We put on sanctions, and we knew we were destined--at least 
a lot of us thought we were destined to go to war in Iraq. And 
this means that we are willing to take on armed conflict. But 
do you know what? What I don't understand is your willingness 
to sort of disrupt what the President is trying to do. The 
President is trying to negotiate and talk. He said he wanted to 
do it. He should be allowed to do this. This just I think 
disrupts what the President is trying to do.
    Recently, the President spoke at the United Nations; and 
under his pressure and leadership, he had U.N. Resolution 1887 
pass. He has been working multilaterally to try to bring peace 
to that area by having a non-nuclear Middle East. So if that is 
the administration's position, to have a non-nuclear Middle 
East, then why do we do this to disrupt some of the things that 
he is trying to do?
    I just am disturbed by us not looking through and looking 
at the ramifications, looking at the unintended consequences, 
and this pretense that we can just do this and everything is 
going to come out all right. Because I really believe in the 
long run we will suffer, the people will suffer, and there will 
not be more stability.
    How can we get terrified of a threat from the Iranians? 
They are a Third World nation. Up until recently, they couldn't 
even make their own gasoline. But because of our pressure so 
far they are getting quite capable of doing it. We are driving 
them into the hands of the Chinese. They have our money. They 
can control us through the dollar. And yet we are driving the 
Chinese into taking over, just as we drove the Iraqis to become 
close allies of the Iranians.
    I think our policies are deeply flawed. I say your 
motivations are fine and dandy, but motivations aren't the 
answer. We have to think of the consequences.
    Chairman Berman. Time of the gentleman is expired.
    I didn't want to interrupt the gentleman, but, at the end, 
I will make my own motion to strike, and I do want to speak to 
one issue the gentleman raised regarding Iran's right to enrich 
and the absence of my violations of the nonproliferation 
treaty. But I will do that at the end of the debate.
    The gentleman from Texas, Mr. Green, for what purpose do 
you seek recognition?
    Mr. Green. I move to strike the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, for holding the hearing 
today on a markup of H.R. 2194, which would strengthen the Iran 
Sanctions Act of 1996 by placing further and stricter penalties 
on Iran's energy sector. I am proud to be a cosponsor of this 
bill.
    Since the United States first took action on this issue in 
1996, Iran has continued to defy the international community by 
overtly developing a nuclear program. By doing this, Iran poses 
serious problems to the stability of its region as well as the 
international community.
    While I support the President's effort to reach a 
diplomatic agreement with Iran, it is also important we send a 
clear signal that there will be negative consequences for 
refusing to cooperate. H.R. 2194 accomplishes this goal by 
targeting one of the largest sectors of the Iranian economy. 
The oil industry comprises 20 percent of Iran's gross domestic 
product, and the Iranian Government receives about 80 percent 
of its revenues from oil.
    I strongly support H.R. 2194 and urge my colleagues to vote 
in favor of this legislation. Stability in the Middle East is 
of the utmost importance, not only to the Middle Eastern 
countries but to the international community; and I also hope 
that negotiations with Iran will move forward and we will 
continue to do what we can to reinforce the President's effort.
    Again, thank you, Mr. Chairman, for bringing up the bill; 
and I yield back my time.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Arizona, Mr. Flake, for what purpose do 
you seek recognition?
    Mr. Flake. I move to strike the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Flake. I thank the chairman.
    Like Dr. Paul, I don't question at all the motivation 
behind this measure. I know that I think all of us want the 
same in Iran. We don't want to see Iran develop nuclear 
weapons. We would like to see them join the community of 
nations in a responsible manner and form.
    But I do question the efficacy of moving forward in this 
way, in this unilateral way. I have long questioned the 
purpose--not so much the purpose but the efficacy, as I say, of 
these unilateral sanctions. We say that we are not going to tie 
the hands of the administration, and perhaps we aren't today 
with this, but we will later. That will be the next step. That 
tends to be the way we go with unilateral sanctions like this.
    Let me just raise the issue of Cuba. That is what we have 
done there. And I would argue that years later, years and years 
and a couple of decades after the main threat was gone there, 
Cuba's ability to export revolution around the world when the 
Soviets pulled out, we have tied the administration's hands in 
a way that they can't effectively move, our own administration, 
to deal more effectively with the problems still there. And 
there are problems. And I hoped that we could move Cuba closer 
toward democracy. But I would argue that the unilateral 
sanctions that we have there have diminished the prospects of 
an effective end to that problem, and I fear that we will go 
down that road here.
    As I mentioned, I know that this package today does not tie 
the hands of the administration. But my guess is that is the 
next step that we will do, the next step that we will take.
    I hope that the administration is successful in their 
negotiations and in their talks, and I think that we should 
wish them well there. I do believe there is a case for 
multilateral sanctions. I simply want that to happen, and I 
question whether or not sometimes when we move too far ahead of 
our allies it makes it more difficult to pull them in. So I 
hope we have a large multilateral front that is more effective 
than these unilateral sanctions tends to be.
    John Bolton, who we recognize here certainly as Republicans 
is no shrinking violet, says this. He is advocating for this 
legislation, I should say, but he said this, that no one should 
believe that tighter sanctions will in the foreseeable future 
have any impact on Iran's nuclear weapons program.
    Secretary Clinton said--she described these sanctions on 
Iran as ``leaky.''
    The New York Times reported earlier this month black market 
networks have sprouted up all over the globe to circumvent U.S. 
sanctions on Iran.
    If we concede, and I think all of us have to, that these 
unilateral sanctions aren't going to be an effective means to 
deal with Iran's emerging nuclear problem, then why would we 
take this measure? Why would we do this and start to tie the 
administration's hands on this?
    Now some will say we are just giving them another arrow in 
their quiver. I understand that. But that quickly moves, as we 
have seen in the past, toward tying their hands; and I don't 
think that that is what we <greek-l>do  deg.ought to do at this 
point.
    And I yield back the balance of my time.
    Chairman Berman. The time of the gentleman is expired.
    The gentlelady from California, Ms. Woolsey, for what 
purpose do you seek recognition?
    Ms. Woolsey. I ask unanimous consent to strike the last 
word.
    Chairman Berman. The gentlelady is recognized for 5 
minutes.
    Ms. Woolsey. Thank you.
    I will vote ``yes'' with the understanding that this 
legislation provides space for the President and for all of us 
and for the President's representatives to further a policy of 
smart security, security that comes based on diplomacy and 
international cooperation.
    Like all of my colleagues, I oppose a nuclear-armed Iran, 
nuclear proliferation making the Middle East and the world as a 
whole much less secure. It is my hope, however, that today's 
action will bring all of the international partners to the 
negotiating table so that America will not go it alone.
    Let me be clear. Our resources and our energy must be 
focused on a peaceful resolution based on ``smart'' security. 
And I say that word over and over. Smart security does not 
start with a gun pointed at you or a bomber flying over your 
city.
    I see this as one more tool for the President. And I hope 
we never have to use it. I stand strongly behind President 
Obama and Secretary Clinton in their pursuit of a peaceful and 
safe Middle East. And, Mr. Chairman, I am counting on you to 
make sure that we go through all of the necessary steps and 
hopefully are safe and secure using diplomacy.
    I yield back.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from South Carolina, Mr. Wilson, for what 
purpose do you seek recognition?
    Mr. Wilson. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Wilson. Mr. Chairman, I want to thank you, Chairman 
Berman. I went to thank Ranking Member Ileana Ros-Lehtinen for 
offering H.R. 2194. I never cease to be amazed at the 
capabilities of Congresswoman Ileana Ros-Lehtinen. On my last 
visit to the Middle East, she introduced me to a hero of mine, 
Natan Sharansky, who to me, as a Soviet dissident, helped bring 
about the collapse of the Soviet Empire. And I didn't know she 
had so many friends all over the world, but I am not surprised.
    The bill is needed because a great civilization, Persia, 
has been hijacked by extremists who I think mean what they say 
and that is ``death to America, death to Israel.'' When the 
elections were stolen this year in Iran, the administration 
failed to encourage the youth of Iran who were demonstrating 
for human rights and democracy. We need to act now.
    I am very grateful to be on the Armed Services Committee; 
and, of course, this month we saw that Iran has been testing 
their new missile capability. And the range of their capability 
now clearly includes long-time allies of the United States and 
new allies, Greece, Bulgaria, Rumania, Ukraine, and then to the 
east they can threaten India.
    We also know that Iran has been proceeding with nuclear 
weapons development. There is absolutely no need to build 
nuclear power capability underground, but we have seen the 
pictures of the underground capabilities being developed.
    I know that with the maddened autocrats who are running 
Tehran that they cannot be trusted. We need to act. We need to 
follow the wisdom of Ronald Reagan, peace through strength.
    And I yield the balance of my time.
    Chairman Berman. The time of the gentleman is expired, and 
the gentlelady from Texas seeks recognition.
    Ms. Jackson Lee. Yes. I would like to strike the last word.
    Chairman Berman. The gentlelady is recognized for 5 
minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    I appreciate the dilemma that we are in. It is a dilemma 
that we face not made by ourselves but by leadership of Iran 
that simply does not want to be part of the world family. 
However, I also support and recognize the importance of the 
efforts made by the State Department and our President, and I 
support these efforts. I believe engagement has validity to it, 
but I thank you very much for recognizing that it is the people 
of Iran that we must be concerned with.
    It is the human rights. It is important that we acknowledge 
that, throughout 2009, the Government of Iran has persistently 
violated the rights of its citizens. The Government of Iran's 
most overt display of disregard for human rights happened in 
the Presidential elections on June 12, 2009. At that time, I 
said we must condemn Iran for the absence of fair and free 
Presidential elections and urge Iran to provide its people with 
the opportunity to engage in a democratic election process. The 
repression and murder and arbitrary arrests, show trials of 
peaceful dissidents in the wake of the elections were a sad 
commentary on the desire of the Iranian people to have 
democracy.
    I am delighted that language that speaks to the need for 
improved human rights that I submitted has now been included 
into this legislation.
    It is important that we are clear that our concerns are 
with the Government of Iran and not its people. The State 
Department's human rights report on Iran provides a bleak 
picture of life in Iran. The Government of Iran, through its 
denial of the democratic process and repression of dissent, has 
prevented the people from determining their own future. 
Moreover, it is the Government of Iran that persecutes its 
ethnic minorities and denies the free expression of religion.
    Members of the committee should remember that the target is 
the government as we proceed in consideration of this 
legislation. The Government of Iran has repeatedly showed its 
disdain for the international community in repeatedly refusing 
cooperation on nonproliferation.
    However, we have noted over the last couple of weeks their 
doors have been open to those who are now assessing the status 
of their nuclear weapons or potential for such. Some of those 
who were there giving oversight happened to be Americans.
    So my view is this: I want the President and the 
administration and the Secretary of State and other supporting 
agencies to have the full opportunity to engage. I want this 
resolved. I want the people of Iran to have a democratic 
government. I want them to be able to choose their democratic 
government. If this legislation will provide an additional tool 
to move us along, to give the Iranian people what they have 
begged for, for years and decades, to free them, to allow 
women, young women, young men, families, to live in a 
democratic society, to give the Iranian people what they would 
like to do, which is to be part of the world family, then I 
believe this is one tool.
    I would not like this to jump ahead of the engagement 
process; and I would hope that we will be able, Mr. Chairman, 
in weeks to come to be provided with a report from the 
administration on what progress has been made. Otherwise, 
however, the idea of eliminating the refined petroleum products 
is one that creates at least the sense of both strength of the 
world community and the recognition that the American people 
are serious about supporting their brothers and sisters in 
Iran.
    Religious freedom, human rights, democracy, equality, the 
right to excel should be, in essence, the right of the Iranian 
people. For that reason, I will be supporting this legislation.
    I yield back.
    Chairman Berman. The time of the gentlelady has expired; 
and the gentlelady from California, Ms. Lee.
    Ms. Lee. Thank you very much, Mr. Chairman.
    I move to strike the last word.
    Chairman Berman. The gentlelady is recognized for 5 
minutes.
    Ms. Lee. I wanted to thank you for your leadership and also 
for your previous comments and your position with regard to 
this markup, which has stressed the variety of diplomatic and 
multilateral tools that we should use in pursuing our work to 
prevent Iran from pursuing a destabilized and nuclear weapons 
capability.
    As one who believes in and has worked for nonproliferation 
efforts throughout my life everywhere in the world, I am 
equally concerned about the prospect of Iran acquiring nuclear 
weapons. And though I believe we should do everything, 
everything we can do to support the Obama administration during 
this very critical juncture, this includes providing the tools 
that the administration deems necessary to prevent Iran from 
backsliding in the very important negotiation processes that 
are taking place at this point.
    At this time, however, we cannot restrict the 
administration's flexibility by mandating unilateral sanctions. 
The strong bipartisan support on this committee and in Congress 
for holding Iran accountable for its actions is, in itself, a 
signal to Iran that if they do not live up to their end of the 
bargain, Congress will act swiftly.
    The prospect of Iran acquiring nuclear weapons is 
unacceptable and so is the status quo. However, I am extremely 
concerned, extremely concerned that moving this bill out of 
committee would undermine President Obama's diplomatic efforts; 
and, for those reasons, I cannot support the bill.
    Thank you, Mr. Chairman. I yield the balance of my time.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from New York, Mr. Crowley, is recognized 
for--moves to strike the last word? The gentleman is recognized 
for 5 minutes.
    Mr. Crowley. Yes, Mr. Chairman. I move to strike the last 
word.
    Thank you, Mr. Chairman. I will not use all 5 minutes. But 
let me thank you and Ranking Member Ros-Lehtinen for this 
markup.
    I strongly support this legislation. This move gives the 
President the room he needs to negotiate while also offering 
tools if these negotiations fail. Most importantly, this bill 
makes it clear that there will be a price to pay for the 
development of nuclear weapons in Iran.
    I hope that the Iranian regime, which to date has been 
government of the mullahs, by the mullahs, and for the mullahs, 
will change course by ending its nuclear ambitions and 
respecting its people.
    While the regime is marching toward isolation, the Iranian 
people have marched for change; and we stand strongly on the 
side of the Iranian people in their quest for a future of Iran 
which respects human rights and ends all threats to countries 
throughout the Middle East.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Florida, Mr. Bilirakis, for what purpose 
do you seek recognition?
    Mr. Bilirakis. Yes, thank you, Mr. Chairman. I just want 
to----
    Chairman Berman. The gentleman moves to strike the last 
word?
    Mr. Bilirakis. Yes, I move to strike the last word.
    Chairman Berman. Recognized for 5 minutes.
    Mr. Bilirakis. I would just like to thank you and the 
ranking member for offering this piece of legislation which I 
strongly support and have cosponsored, and I want to submit my 
full statement for the record. I appreciate it very much.
    I yield back the balance of my time.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Arkansas, Mr. Ross, for what purpose do 
you seek recognition?
    You don't. Without purpose.
    The gentleman from North Carolina?
    Passes.
    The gentleman from Georgia?
    Passes.
    The gentleman from Minnesota, for what purpose do you seek 
recognition?
    Mr. Ellison. Mr. Chairman, I move to strike the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Ellison. I ask for unanimous consent to insert into the 
record the following letters to the committee expressing 
concern about the timing of this markup and asking for delay in 
consideration of this bill.
    Mr. Chairman, you and I share the same goals of a non-
nuclear-armed Iran----
    Chairman Berman. The gentleman--without objection, those 
letters<greek-l>Plural but only received one letter deg. will 
be included in the record; and make sure that we get copies of 
them.
    [The information referred to follows:]<greek-l>Letter deg.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Berman. The gentleman is recognized.
    Mr. Ellison. You and I share the same goals of a non-
nuclear-armed Iran. I do not agree, however, that increased 
sanctions at this time are the right course of action.
    Ten months of diplomacy by the Obama administration has 
achieved more than 8 years of bellicose posturing and 15 years 
of sanctions and 30 years without dialogue. I may be open to a 
sanctions bill in the future, but, at this moment, we need to 
give diplomacy a chance. And so far President Obama's efforts 
have been working. There is finally some progression in dealing 
with Iran. President Obama's diplomacy has yielded an agreement 
that increases inspections and verification and reduces Iran's 
stockpiles of enriched uranium.
    When Iran met with the members of the U.N. Security Council 
on November 1, few were optimistic. But, right now, the United 
Nations inspectors are visiting a uranium enriched site near 
Qom, Iran. Previously, the Iranian Government would not 
disclose its location. Right now, the Iranian Government is 
weighing a proposal by the International Atomic Energy Agency 
to send enriched uranium to Russia and France to be turned into 
fuel.
    Diplomacy is an effective means of addressing our issues 
with Iran. We must not rush this process. This is why the Obama 
administration has not asked for additional sanctions at this 
time.
    In fact, sanctions in Iran have not proven to be effective.
    First, Iran has bypassed sanctions. Iran has been able to 
ward off some consequences of sanctions by boosting trade with 
Russia, China, India, and others. The more we take trade 
opportunities away from American businesses, the more other 
nations step into the vacuum.
    Two, Iranian democracy leaders do not support increased 
sanctions. Nobel peace laureate Shirin Ebadi and dissident 
Akbar Ganji tell us that sanctions will only hurt the people, 
especially the working classes in Iran. Even opposition 
candidate MirHousein Mousavi has denounced sanctions, saying 
that anyone who supports his ``green'' revolution movement--
green movement should also oppose additional sanctions.
    According to Mousavi, ``Sanctions would not actively act 
against the government. Rather, they would only hurt the 
people. We are opposed to any types of sanctions against our 
nation. This is what living the green path means.''
    Increased sanctions may strengthen Iran's revolutionary 
guard. A recent report by the Rand Corporation documented a 
growing corollary between the power of Iran's Revolutionary 
Guard, a branch of the military associated with much of Iran's 
corruption, with sanctions. With inflation in Iran over 20 
percent and with manufacturing in serious decline, sanctions 
will only lead to higher prices and greater black market trade, 
which is already controlled by the Revolutionary Guard.
    Increased sanctions, in sum, are likely to result in Iran 
going around sanctions, are not supported by democracy leaders, 
and may strengthen the Revolutionary Guard.
    Let me be clear, Mr. Chairman, I am appalled by Iran's 
dismal human rights record. Since the election of President 
Mahmoud Ahmadinejad in 2005, the number of executions has 
increased fourfold, many of those executed because they spoke 
out against Ahmadinejad's government. Gays and lesbians have 
been rounded up, in some cases executed. Women's rights 
advocates have been arrested, reportedly raped, beaten, and 
killed. Religious minorities like the Baha'i live in fear and 
intimidation.
    I am also shocked and appalled that President Ahmadinejad 
would deny the profound suffering of the Holocaust. All of this 
is unacceptable.
    But, right now, Congress needs to give President Barack 
Obama's diplomatic efforts a chance before increasing 
sanctions. That is why I am opposed to marking up this bill 
right now.
    Diplomacy and efforts toward peace are not naive. In fact, 
after 30 years of no dialogue, 15 years of economic sanctions, 
we cannot expect that doing more of the same will yield a more 
democratic, civil Iranian Government. President Barack Obama's 
efforts are working, and that is why we need to give sanctions 
a chance.
    I would like to thank the chairman for his openness in all 
of his work and the opportunity to speak here today, and I 
yield back the balance of my time.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman. I want to thank you 
and the ranking member--I move to strike the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. McCaul. I want to thank you and the ranking member for 
this legislation.
    The year 1979 certainly transformed the Middle East for 
decades to come when the Ayatollah Khamenei took over. We are 
still dealing with that issue today, which is why I think this 
legislation is necessary. A nuclear Iran, I think everybody in 
this committee agrees, is not acceptable.
    We are providing a lot of carrots, I think, the 
administration, through diplomacy, but this will provide the 
necessary sticks, I think, toward moving forward with a 
nuclear-free Iran.
    My concern, as we demonstrated in the hearing yesterday on 
Venezuela, is that the day that this bill passes, countries 
like Venezuela and China will be immediately in violation of 
this act. And the question before the Congress and the 
President of the United States is going to be, what are we 
prepared to do about that and are we going to enforce this act? 
Are the enforcement provisions in this act strong enough or is 
this just going to be a statement that we make in the Congress, 
like we do so many times, without any teeth?
    So I think that is something, Mr. Chairman, we need to 
think long and hard about. Because we know when this passes the 
Congress that Venezuela is going to continue to supply its 
shipments of refined petroleum products, and we know that China 
is going to continue to do that as well. And we know many other 
countries will as well.
    So I think that is, again, a question we need to ask 
ourselves as we deliberate this legislation; and I think the 
administration and the President need<greek-l>s deg. to be 
prepared for that. Because we know the outcome is certain. And 
if we pass this and do nothing, in my judgment, we are nothing 
but a paper tiger.
    And with that I yield back.
    Chairman Berman. The time of the gentleman has expired.
    The gentlelady from Arizona, Ms. Giffords.
    Ms. Giffords. Thank you, Mr. Chairman.
    I move to strike the last word.
    Chairman Berman. The gentlelady is recognized for 5 
minutes.
    Ms. Giffords. Thank you for taking this time to mark up 
this important piece of legislation in committee today.
    I am a very proud sponsor of the Iran Refined Petroleum 
Sanctions Act and have been working with you and other members 
of our leadership to move this bill as swiftly as possible in 
the Congress.
    I think the people of America firmly understand and 
certainly are allies that for years the Government of Iran has 
repeatedly dismissed international attempts to negotiate the 
country's nuclear program. Preventing the country of Iran from 
developing nuclear weapons is one of the most pressing 
challenges for this Congress and for our allies.
    President Obama has rightly pursued diplomacy; and my 
colleague, Mr. Ellison, spoke recently very eloquently on that. 
However, this legislation also provides the administration with 
a full range of tools needed to address the nuclear threat from 
Iran, and this comprehensive method includes sanctions.
    Furthermore, we cannot allow companies to profit from 
investments made in a country that sponsors terrorism, promotes 
religious intolerance, has an abysmal human rights record, and 
threatens the stability of the Middle East. By targeting these 
firms heavily invested in Iran's energy sector, we will send a 
clear message to the people of Iran and to their leadership: A 
nuclear Iran is simply unacceptable. Iran's petroleum sector 
alone generates 20 percent of the country's gross domestic 
product. Limiting the significant source of funding is 
essential to deterring Iran's pursuit of nuclear weapons.
    This Congress must continue to work to address this threat 
in a comprehensive way, and I commend this committee for 
working swiftly to achieve this goal.
    Thank you, Mr. Chairman, and Ranking Member Ros-Lehtinen 
for all of your work on this. I yield back.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from Florida, Mr. Klein, for what purpose do 
you seek recognition?
    Mr. Klein. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Klein. Mr. Chairman, I want to thank you and the 
ranking member for bringing this very important piece of 
legislation to the Foreign Affairs Committee today; and I am 
proud to be a cosponsor of the Iran Refined Petroleum Sanctions 
Act of 2009.
    As the administration pursues a diplomatic strategy, I 
firmly believe that Congress must act simultaneously so that 
new and crippling sanctions are ready if negotiations fail. At 
the same time, we must persuade our allies to join us in these 
efforts. We are at our most effective when we work 
multilaterally, and I was encouraged by reports that the 
administration is seeking the support of the Gulf States in 
supplying China with oil.
    China is a large consumer of energy, getting larger by the 
day; and if China ends its reliance on Iranian oil, they may be 
more likely to support a new and tougher round of sanctions in 
the United Nations.
    In my meetings with Arab ambassadors and representatives to 
the United States, their sense of urgency is palpable as they 
consider the future of the Middle East if Iran were to get a 
nuclear weapon. This is a scary prospect, unacceptable, and the 
Arab states have everything to lose. Their oil is an important 
resource that they can use to prevent an Iranian nuclear 
weapons program and an arms race in the region.
    This legislation seeks to sanction companies that provide 
refined petroleum to Iran. As other members have already 
mentioned, Iran imports 40 percent of its oil because they do 
not have enough refining capacity. This bill could bring Iran's 
economy to a standstill. The business class in Iran, which is 
rather sophisticated, wants to be part of the global economy; 
and they should take this opportunity to say to their 
leadership and their government, enough is enough.
    Now is the time to move this legislation and send a strong 
message to Iran and our allies around the world that there are 
serious and isolating consequences for Iran's actions.
    I would also like to thank the chairman for working with me 
to include language in the bill under consideration today based 
on a bill that I have filed, the resolution H.R. 3922, the 
Accountability for Business Choices in Iran Act. This 
legislation, which is supported in a bipartisan way in this 
Congress, requires companies, including foreign companies that 
have U.S. Government contracts, including grants earmarks, 
stimulus funds, or bank bailouts, to certify that they do not 
conduct business in Iran. This is, again, a way of engaging 
multinational businesses outside the United States as well in 
making choices.
    The Accountability for Business Choice in Iran Act has 
achieved broad support, and I believe its inclusion in today's 
resolution strengthens our efforts.
    Today, we are requiring companies to certify that they are 
not providing the last crutch of support to the Iranian economy 
by boosting their refined petroleum. It is time for companies 
to make a choice: Either do business with the United States 
Government or do business with Iran. Iran must not get a 
nuclear weapon, not on our watch and certainly not on our dime.
    I would like to thank the chairman for his leadership, 
along with the ranking member; and I urge my colleagues to 
support the Iran Refined Petroleum Sanctions Act.
    I yield back the balance of my time.
    Chairman Berman. The time of the gentleman has expired.
    The chair is unaware of any other--the chair is wrong--
again.
    The gentleman from New York, Mr. Meeks, for what purpose do 
you seek recognition?
    Mr. Meeks. Strike the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Meeks. Thank you. Mr. Chairman, I thank you and the 
ranking member for your hard work and for your dedication to 
this committee.
    Mr. Chairman, both carrots and sticks are important when 
you sit at the negotiating table. And I am supporting the Iran 
Refined Petroleum Sanctions Act not because I believe it is 
ideal but rather because I want to send the message that all 
options remain on the table if diplomatic negotiations do not 
produce results.
    As a general rule, I am not a enthusiastic supporter of 
unilateral sanctions; and I want to be clear that I fully 
support the administration's diplomatic efforts so far as we 
try to change the dynamics with regard to Iran and its nuclear 
ambitions. For a nuclear Iran is not something that we can 
tolerate or have at all.
    But we have seen some encouraging signs from recent 
engagements by the administration, and I hope that the progress 
continues. However, seeing the clearest indication yet of the 
administration's thinking on the Iran issue, sanctions issue, I 
am extremely convinced that the combination of a more effective 
sanctions regime which targets the actual leaders of Iran, 
alongside measures that empower the people to build up their 
civil society and strive for political representation, seems to 
me exactly the type of approach that we should be taking in the 
long run. It is smart sanctions, as opposed to some general 
sanctions that affect the people, the entire population of 
Iran.
    I have heard many individuals talk about how we don't want 
to hurt the people of Iran. Because someone used the word that 
Iran had been ``hijacked'' by a few. We need to find the 
sanctions that are going to affect those few who, in effect, 
have hijacked the entire country.
    I want to call your attention to a hearing on October 6, 
2009, before the Senate Banking Committee regarding Iran's 
sanctions. Deputy Secretary of State Jim Steinberg and Under 
Secretary of the Treasury Stuart Levey discussed at length the 
Obama administration's official Iran policy with a special 
focus on what types of sanctions the administration believed 
would be most effective. From this hearing, it became clear 
that the administration is not entirely sold on a comprehensive 
petroleum sanctions as the best course of action on Iran.
    Mr. Levey was asked if the administration supports a 
petroleum embargo; and he said, I think in the long run we have 
to. But in terms of which the potential measures of sanctions, 
whether they are more targeted on individual entities in Iran 
as opposed to a broad-based thing that would affect the Iranian 
economic like that, and I think we have not reached a judgment 
as to which of those might be the most effective, in part 
because not only do we want to have the impact on the economy, 
but we want to make sure that it is going to affect the 
decision making in Iran and not target the wrong people in Iran 
and, similarly, to make sure that we maximize the chance of 
getting international support for these things. Because there 
is obviously a risk in these things; and if we do not have 
international support, then there will be diversions. There 
will be workarounds, and the affect of the sanctions will not 
nearly be as effective.
    The Iran Refined Petroleum Sanctions Act, which imposes a 
gasoline embargo on Iran and which has the support of three-
quarters of both Chambers, is apparently not the ideal 
legislation in the eyes of the administration. The 
administration does not support or oppose this administration. 
Rather, the Obama administration is pursuing its own strategy, 
taking into account a number of factors that must be 
considered. Among these are human rights concerns as well as 
the current political dynamic in Iran with the people rising up 
against the government.
    I close with Mr. Steinberg's statement when he said, ``I do 
think we always have to worry about the humanitarian impact and 
the political impact of proposed sanctions. Because we want to 
take advantage of the dynamic they have and not to undercut the 
opposition, not to hurt those who are being courageous in 
Iran.''
    And, therefore, I yield back the balance of my time.
    Chairman Berman. The time of the gentleman has expired.
    The gentlelady from Nevada, Ms. Berkley.
    Ms. Berkley. Mr. Chairman, I move to strike the last word.
    Chairman Berman. The gentlelady is recognized for 5 
minutes.
    Ms. Berkley. I thank the chairman for your time and for 
your skillful, thoughtful and resolute leadership on this 
issue.
    The chairman knows how important I think this bill is to 
the peace and security of the entire world. Therefore, I am a 
proud cosponsor of the Iran Refined Petroleum Sanctions Act, 
because I believe we must do everything in our power to stop 
the Iranian nuclear threat.
    A nuclear Iran is a danger not only to Israel but a danger 
to the entire Middle East, to our European allies and friends 
and, ultimately, to the United States. Iran has repeatedly 
shown its willingness to destabilize and threaten other 
countries. One need only look to its support for terrorist 
groups like Hezbollah and Hamas and yesterday's joint hearing 
in our committee to see Iran's evolving and very dangerous 
influence in South America.
    A nuclear Iran would spark an arms race in the Middle East. 
The Saudis and the Egyptians would never stand for a nuclear 
Iran. They would likely build up their own defenses, including 
nuclear weapons, to counter the Iranian threat and usher in a 
new era of a new nuclear arms race the likes of which this 
world has never seen before.
    And, as we know all too well, Iran has threatened to wipe 
Israel off the map. The Iranian President has denied the 
Holocaust, while planning one of his own.
    Why does he attack Israel? Because it is our ally, and we 
are the Iranian regime's ultimate target. So if we are serious 
when we say ``never again'' and if we are serious about 
protecting ourselves from Iran, then we must stop this threat 
now.
    As the former Israeli Prime Minister Ariel Sharon told a 
group of Congress people during his last visit to the United 
States, Iran is as much a threat to the United States and to 
Europe and to the Middle East as it is to Israel; and the world 
should not leave it to Israel to do its dirty work.
    We must use every tool available to us, including this 
important legislation. I am a cosponsor of this bill because it 
sends a clear message to those who do business with Iran's 
petroleum sector: You can trade with Iran and its less than 
$300 billion economy or you can trade with the United States 
with an economy of more than $13 trillion. I believe the choice 
should be clear.
    This bill is just a part of a broader picture. We must also 
enforce our own previously passed sanctions and sanctions that 
have already been approved by the United Nations. It is time to 
put our words into action, which, unfortunately, has not been 
the case so far. We and our partners on the United Nations 
Security Council must enforce laws already passed and stop our 
companies from skirting the sanctions we, ourselves, agreed to. 
If sanctions are to work, they must be enforced by all parties 
before we all face this common threat.
    I also want to applaud and thank Stuart Levey, Under 
Secretary of Treasury for Terrorism and Financial Intelligence, 
who has done a masterful job of targeting Iran's financial 
sector. Using a creative mix of diplomacy, economics, and 
sanctions, Mr. Levey has made it extremely difficult for the 
Iranian regime to get loans and to conduct the simple financial 
transactions our Government considers routine.
    The assets of countless Iranian officials have been frozen, 
and banks the world over are now unwilling to do business with 
the Iranian Government officials because they know the United 
States, a far more important and lucrative trading partner, 
won't do business with them at the same time. This bill also 
strengthens those foreign exchange and financial sanctions.
    Frankly, I am deeply skeptical Iran will ever agree to 
negotiate away their nuclear weapons program, but I do believe 
it strengthens our position when we mix negotiations with 
sanctions. We do not seek war and do not wish to harm the 
Iranian people, and we are not working for regime change in 
Iran. We are focused on one goal and one goal only: The end of 
Iran's nuclear threat. With this bill today, we send a message 
to Iran that we are determined to end their nuclear threat. We 
should not take any option off the table.
    I urge support for this bill. I urge all nations to join us 
in this effort. And I yield back the balance of my time.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from the American Samoa, Mr. Faleomavaega, is 
recognized for 5 minutes.
    Mr. Faleomavaega. Mr. Chairman, I move to strike the last 
word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Faleomavaega. Mr. Chairman, I thank you and our ranking 
member for your leadership and initiative by introducing this 
important legislation.
    I note with interest that this legislation is aimed at the 
Iranian regime and not at the good people of Iran. The recent 
Presidential elections in Iran have proven that there is still 
a problem in having democratic elections in that country.
    I support this legislation, Mr. Chairman. The only concern 
I raise is, Mr. Chairman, where does the administration stand 
on this proposed bill? Will it help or hinder the 
administration's efforts to find a resolution to this difficult 
issue, now seriously raised, the security issues in this region 
of the world?
    It is my understanding that for years the vast majority of 
foreign companies doing business in Iran were from countries 
that are our own allies. It is quite obvious, Mr. Chairman, 
that the issue is not about petroleum, but about nuclear 
proliferation. There is no question that much has been said 
about the potential of Iran possessing nuclear weapons, raising 
the question of where Israel stands on this. And then the next 
question is whether or not the Arab countries would also like 
to have in their possession nuclear weapons for their own 
security and protection.
    I do commend President Obama's recent initiative to lessen 
the number of nuclear weapons we now have in the world and the 
initiative in doing this with the former Soviet Union. It is my 
understanding, Mr. Chairman, that we now have, worldwide, well 
over 20,000 nuclear weapons capable of blowing this planet 10 
times over, if we look at it in those terms.
    But these are the concerns that we can fully understand and 
appreciate: If Iran chooses to go the way of producing nuclear 
weapons, not only does it undermine but it does question the 
seriousness and the implications of the nuclear 
nonproliferation treaty. It is not about petroleum; it is about 
the serious problem of nuclear capabilities in these countries 
in this very volatile region, the Middle East.
    With that, Mr. Chairman, I yield back.
    Chairman Berman. The time of the gentleman has expired.
    No other members seeking recognition, the chair, 
notwithstanding his comments--Mr. Paul--has concluded that he 
will only hurt his cause if he moves to strike and takes 5 
minutes to deal with all of Mr. Paul's comments and instead 
would hand Mr. Paul and put into the record a 4-page sheet 
called ``Evidence of Iran's Military Nuclear Intentions and 
Iran's Safeguard Violations.'' I will make sure you get a copy 
on that one issue.
    [The information referred to follows:]<greek-l>Evidence of 
Iran's Military Nuclear Intentions deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Berman. And the question occurs on the amendment 
in the nature of a substitute without amendment.
    All in favor will vote aye.
    All opposed, no.
    The ayes appear to have it, and the amendment is agreed to.
    The chair is prepared to receive a motion.
    Mr. Faleomavaega. Mr. Chairman, I move the favorable 
recommendation of H.R. 2194, as amended, to the House.
    Chairman Berman. The question occurs on the motion by the 
gentleman from American Samoa to report H.R. 2194, as amended, 
favorably to the House.
    All in favor, say aye.
    All opposed, no.
    The ayes have it. The motion is adopted.
    Without objection, the bill will be reported as a single 
amendment in the nature of a substitute incorporating the 
amendments adopted by the committee; and the staff is directed 
to make any technical, conforming changes.
    I would like to say one last thing. The staff on both 
sides, in terms of putting this together until very late last 
night, have done tremendous work. I am not going to mention all 
the names, but I do want to point--single out one person in 
particular, and that is our legislative counsel, who 
personally, even with the discretion to ask someone else to do 
this work, made a very complicated bill, complicated for a 
number of reasons, in some kind of coherent legal sense; and, 
Sandy Strokoff, we are very grateful for your help in this 
case.
    Ms. Ros-Lehtinen. Mr. Chairman, if I can have 1 minute to 
say----
    Chairman Berman. Of course.
    Ms. Ros-Lehtinen [continuing]. Thank you so much again for 
negotiating in good faith with all of us during this whole 
ordeal. It really has been a wonderful experience, and I hope 
that we can protect this fine legislation that we reported out 
of committee while it is being considered in other committees 
and as it moves to the House and then in conference with the 
Senate. And we hope that we can have it at the President's desk 
sooner rather than later and appreciate again your work on this 
bill. Thank you.
    Chairman Berman. Will the gentlelady yield?
    Ms. Ros-Lehtinen. Yes, sir.
    Chairman Berman. For me, the transcendent purpose here is 
to maximize our chances in Congress of playing a useful role in 
stopping Iran's nuclear program. So everything--I can only 
speak for myself but, number one, I commit to be transparent 
with you in terms of our goals and the timing and the problems 
that are coming up and changes that are being sought and, 
secondly, to do everything based on that and not on either 
undue deference to an executive branch or to political 
pressures from around here but to focus on the goal here, which 
is to play as useful a role as we can play in stopping Iran's 
nuclear program.
    Mr. Wilson. Mr. Chairman. Mr. Chairman, I would like to 
commend you also for the bipartisanship. This is also probably 
the last meeting we will have prior to November 9; and, of 
course, this coming Tuesday in a bipartisan effort we will be 
welcoming the Chancellor of Germany, Angela Merkel. An 
extraordinary achievement, a unified Germany. It was 20 years 
ago virtually today that very few people understood that the 
Berlin Wall would come down beginning on November 9, 1989; and 
so we need to recognize the heroism.
    And as I am sitting here I am thinking of our former 
chairman, Tom Lantos, and his leadership during the Cold War 
and his opposition to totalitarian Communism. We can be 
successful. We can have victory.
    Thank you, Mr. Chairman.
    Chairman Berman. All right, unanimous consent that all 
statements that people want to submit for the record will be 
included, including mine.
    And, with that, the committee is adjourned. Thank you all 
very much for your cooperation.
    [Whereupon, at 12 o'clock p.m., the committee was 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berman statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Jackson Lee statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Ellison deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
